<html>
<title> - DOE'S MOUNTING CLEANUP COSTS: BILLIONS IN ENVIRONMENTAL LIABILITY AND GROWING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 DOE'S MOUNTING CLEANUP COSTS: BILLIONS IN ENVIRONMENTAL LIABILITY AND 
                                GROWING

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2019

                               __________

                           Serial No. 116-29
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce   
                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov                       
                        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-903 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona

                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
              Subcommittee on Oversight and Investigations

                        DIANA DeGETTE, Colorado
                                  Chair
JAN SCHAKOWSKY, Illinois             BRETT GUTHRIE, Kentucky
JOSEPH P. KENNEDY III,                 Ranking Member
    Massachusetts, Vice Chair        MICHAEL C. BURGESS, Texas
RAUL RUIZ, California                DAVID B. McKINLEY, West Virginia
ANN M. KUSTER, New Hampshire         H. MORGAN GRIFFITH, Virginia
KATHY CASTOR, Florida                SUSAN W. BROOKS, Indiana
JOHN P. SARBANES, Maryland           MARKWAYNE MULLIN, Oklahoma
PAUL TONKO, New York                 JEFF DUNCAN, South Carolina
YVETTE D. CLARKE, New York           GREG WALDEN, Oregon (ex officio)
SCOTT H. PETERS, California
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     2
    Prepared statement...........................................     3
Hon. Brett Guthrie, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     4
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     9
    Prepared statement...........................................    11

                               Witnesses

Anne White, Assistant Secretary, Office of Environmental 
  Management, Department of Energy...............................    13
    Prepared statement...........................................    16
    Answers to submitted questions...............................    70
David C. Trimble, Director, Natural Resources and Environment, 
  Government Accountability Office...............................    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................    99

 
 DOE'S MOUNTING CLEANUP COSTS: BILLIONS IN ENVIRONMENTAL LIABILITY AND 
                                GROWING

                              ----------                              


                         WEDNESDAY, MAY 1, 2019

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:29 a.m., in 
room 2322, Rayburn House Office Building, Hon. Diana DeGette 
(chair of the subcommittee) presiding.
    Members present: Representatives DeGette, Schakowsky, 
Kennedy, Ruiz, Kuster, Castor, Clarke, Pallone (ex officio), 
Guthrie (subcommittee ranking member), Burgess, Griffith, 
Brooks, Mullin, Duncan, and Walden (ex officio).
    Staff present: Mohammad Aslami, Counsel; Kevin Barstow, 
Chief Oversight Counsel; Chris Knauer, Oversight Staff 
Director; Jourdan Lewis, Policy Analyst; Perry Lusk, GAO 
Detailee; Jon Monger, Counsel; Elysa Montfort, Press Secretary; 
Meghan Mullon, Staff Assistant; Kaitlyn Peel, Digital Director; 
Nikki Roy, Policy Coordinator; Jen Barblan, Minority Chief 
Counsel, Oversight and Investigations; Margaret Tucker Fogarty, 
Minority Staff Assistant; Brittany Havens, Minority 
Professional Staff Member, Oversight and Investigations; Peter 
Kielty, Minority General Counsel; and Alan Slobodin, Minority 
Chief Investigative Counsel, Oversight and Investigations.
    Ms. DeGette. The Subcommittee on Oversight and 
Investigations will now come to order. Today, the Subcommittee 
on Oversight and Investigations is holding a hearing entitled, 
``DOE's Mounting Cleanup Costs: Billions in Environmental 
Liability and Growing.''
    The purpose of the hearing is to discuss the DOE's 
management of its environmental cleanup program and significant 
increases in environmental liabilities over the years.
    And I will note before we start that there is another 
hearing going on downstairs in the Energy and Commerce 
Committee. There is also a full committee markup going on in 
Natural Resources.
     So people will be coming in and out, but it doesn't mean 
that they are not paying attention. The Chair now recognizes 
herself for purposes of an opening statement.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Today, we continue the Subcommittee on Oversight and 
Investigations' longstanding efforts to oversee the Department 
of Energy's management of its environmental cleanup programs.
    Over the course of the Cold War, the United States 
developed an industrial complex to research, test, and produce 
nuclear power reactors and weapons. This effort left behind 
thousands of tons of radioactive waste, and contaminated soil 
and water at sites nationwide, and the United States Government 
is financially liable for cleaning it up.
    It now estimated that it will cost hundreds of billions of 
dollars to do so. The Department of Energy's Office of 
Environmental Management, or EM, is largely responsible for 
this difficult task.
    It does this by managing contractors and complex cleanup 
operations at sites across the United States. I know how 
important this work is because there is just one of these sites 
up the road from my district, the Rocky Flats Plant in 
Colorado.
    The good news is that over the prior decades, EM has 
successfully cleaned up Rocky Flats and many other sites. The 
bad news is that they have--there are 16 remaining sites which 
still need major work and are, arguably, the most challenging 
and costly to clean up.
    On top of that, the estimated cost to address these 
remaining sites is large and quickly growing. For example, 
according to GAO, EM's environmental liability grew by a total 
of $214 billion since just 2011 and, as of 2018, this figure 
had climbed to a staggering $377 billion.
    During this same period, EM spent $48 billion on cleanup 
efforts, which means that environmental liability is growing at 
a faster rate than DOE's spending and, possibly, even its 
ability to clean up these sites.
    The GAO has told the committee that this growing liability 
poses not only a financial risk to the taxpayer, but possibly 
to cleanup operations if corners are cut or important tasks are 
deferred to future dates due to costs.
    Over the last few decades, this committee, the GAO, and 
others have raised numerous concerns about DOE's management of 
these cleanups. Unfortunately, many of the same concerns and 
questions continue to this day.
    In 2017, and again this year, GAO included the Federal 
Government's environmental liabilities in its ``high risk'' 
list, which are those Federal programs that are most at risk to 
fraud, waste, or mismanagement.
    But this should come as no surprise. Over the years, GAO 
has raised numerous concerns about DOE's EM office. Even today, 
GAO will testify that DOE has not conducted a formal analysis 
to fully understand the root causes of why these environmental 
liabilities are growing each year by tens of billions of 
dollars.
    If they don't understand what is driving costs, it is 
difficult to believe how they can fully control them. The GAO 
will also report that EM is still failing to follow best 
program and best project practices, like having a regularly 
updated management plan and roadmap, having reliable life-cycle 
cost estimates and master schedules that are updated on a 
regular basis, and conducting risk management throughout the 
life of the program.
    Now, I appreciate that many of the challenges facing EM 
span several administrations and, further, that DOE has begun 
to make changes in how it is attempting to manage these sites.
    I also appreciate that Assistant Secretary White--and thank 
you for being here--will tell us today that she intends to 
implement many of the recommendations GAO and others have made 
in recent reports.
    But, you know, I have been on this committee a long time. 
We have many seen DOE make these promises before with regards 
to cleanup operations. And here we are talking again about a 
program that needs major management attention.
    So, Secretary White, we look forward to working with you to 
make sure that it actually happens this time.
    And finally, beyond the promises, I remain concerned that 
EM lacks sufficient staff, expertise, and resources--most 
importantly, resources--to accomplish the tasks that we will 
talk about today, including implementing the GAO's 
recommendation.
    To that end, the Trump administration's proposed budget 
cuts to EM will not make things any better, particularly when 
it comes to implementing some of the best practices that are 
being proposed.
    So, in conclusion, I am hoping EM can fully explain to 
Congress and the American people what is driving the continued 
increase in DOE's environmental liability but also whether the 
GAO believes any new DOE proposals will reverse this trend.
    Cleanup of these sites is critically important. We need to 
have it happen, and we can't be sitting here again in 5, 10, or 
20 years hoping that it will.
    [The prepared statement of Ms. DeGette follows:]

                Prepared Statement of Hon. Diana DeGette

    Today, we continue the Subcommittee on Oversight and 
Investigations' long-standing efforts to oversee the Department 
of Energy's management of its environmental cleanup programs.
    Over the course of the Cold War, the United States 
developed an industrial complex to research, test, and produce 
nuclear power reactors and weapons.
    This effort left behind thousands of tons of radioactive 
waste, and contaminated soil and water at sites nationwide, and 
the United States Government is financially liable for cleaning 
it up.
    It now estimated that it will cost hundreds of billions of 
dollars to do so.
    The Department of Energy's Office of Environmental 
Management-or ``EM''-is largely responsible for this 
difficulttask. It does this by managing contractors and complex 
cleanup operations at sites across the United States.
    I know how important this work is because one site, the 
Rocky Flats Plant in Colorado, is just up the road from my 
district.
    The good news is that, over the prior decades, EM has 
successfully cleaned up Rocky Flats and many other sites.
    The bad news is that the remaining 16 sites-which still 
need major work-are arguably the most challenging and costly to 
cleanup.
    On top of that, the estimated cost to address these 
remaining sites is large and is quickly growing.
    For example, according to GAO, EM's environmental liability 
grew by a total of $214 billion since just 2011. And, as of 
2018, this figure had climbed to a staggering $377 billion.
    During this same period, EM spent $48 billion on cleanup 
efforts, which means environmental liability is growing at a 
level that is outpacing DOE's spending and, possibly, its 
ability to cleanup these sites.
    GAO has told the committee that this growing liability 
poses not only a financial risk to the taxpayer, but possibly 
to cleanup operations if corners are cut or important tasks are 
deferred to future dates due to costs.
    Over the past several decades, this committee, GAO, and 
others have raised numerous concerns about DOE's management of 
these cleanups. Unfortunately, many of those same concerns and 
questions continue to this day.
    In 2017, and again this year, GAO included the Federal 
Government's environmental liabilities to its ``High-Risk'' 
list which are those Federal programs that are most at risk to 
fraud, waste, or mismanagement.
    But this should come as no surprise.
    Over the years, GAO has raised numerous concerns about 
DOE's EM office.
    Even today, GAO will testify that DOE has not conducted a 
formal analysis to fully understand the root causes of why 
these environmental liabilities are growing each year by tens 
of billions of dollars. If they don't understand what is 
driving costs, it's difficult to believe they can fully control 
them.
    GAO will also report that EM is still failing to follow 
best program and best project practices, like having a 
regularly updated management plan and roadmap; having reliable 
lifecycle cost estimates and master schedules that are updated 
on a regular basis; and conducting risk management throughout 
the life of the program.
    I appreciate that many of the challenges facing EM span 
several administrations and further that DOE has begun to make 
changes to how it is attempting to manage these sites.
    I also appreciate that Assistant Secretary White will tell 
us today that she intends to implement many of the 
recommendations GAO and others have made in recent reports.
    But many on this committee have seen DOE make these 
promises before with regards to cleanup operations. And yet we 
are again in this room talking about a program that again needs 
major management attention.
    Finally, beyond the promises, I remain concerned that EM 
lacks sufficient staff, expertise, and resources to accomplish 
some of the tasks it will talk about today including 
implementing the many recommendations GAO has made to improve 
this program.
    To that end, the Trump administration's proposed budget 
cuts to EM will not make things any better, particularly when 
it comes to implementing some of the best practices that are 
being proposed.
    So, in conclusion, I hope EM can fully explain to Congress 
and the American people what is driving the continued increase 
in DOE's environmental liability but also, whether GAO believes 
any new DOE proposals will reverse this trend.
    Cleaning up these sites is a critically important task of 
the Federal Government. Hundreds of billions of tax dollars are 
at stake. So too is the health and environment of the 
communities that surround these sites.
    This is an area we must get right, and I intend to have 
this committee continue paying attention to this important 
area.
    With that, I yield back.

    Ms. DeGette. And so with that, I yield back. I want to 
thank the witnesses for appearing, and I want to recognize the 
ranking member, Mr. Guthrie from Kentucky, for 5 minutes.

 OPENING STATEMENT OF HON. BRETT GUTHRIE, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Guthrie. Thank you. Thank you, Chair DeGette, for 
holding this important hearing. Thanks to our witnesses for 
being here.
    The U.S. Department of Energy's Office of Environmental 
Management, which I will refer to as EM, was created in 1989 to 
clean up the radioactive legacy of the Cold War and was tasked 
with cleaning up 107 sites across the country.
    As part of this effort, EM is responsible for completing 
the safe cleanup of environmental legacy resulting from five 
decades of nuclear weapons development and Government-sponsored 
nuclear energy research.
    To date, DOE has completed a cleanup of 91 of its 107 sites 
with 16 sites remaining. While 85 percent of the original 107 
sites have been cleaned up, the remaining 16 sites has been 
described to the committee as the most challenging sites.
    The EM still has a lot of work to do. This work has been 
ongoing for decades and will continue for decades to come with 
some of the current sites not estimated to be cleaned up until 
2070 or 2075.
    One of the ways that EM's work is measured and estimated is 
through the amount of environmental liabilities, which is 
estimated cost to clean up areas where Federal activities have 
contaminated the environment.
    To develop its environmental liability estimates, EM uses 
the approved life cycle cost for all cleanup projects at each 
of its sites and adds any adjustments and accounts for any 
potential cost decreases.
    The United States Government's liability was $577 billion 
in fiscal year 2018 and was the third highest liability listed 
in the financial report of the United States Government.
    DOE is the driver of most of this liability, accounting for 
$494 billion due to its nuclear cleanup responsibilities. Most 
of DOE's liability, $377 billion out of $494 billion, lies with 
the cleanup costs associated with sites under the 
responsibility of EM.
    DOE's financial statement for the year 2018 showed a sharp 
increase in environmental liability, more than $110 billion. 
EM's environmental liability has grown annually and outpaced 
the agency's annual spending on cleanup activities. For 
example, fiscal year 2011 and fiscal year 2017's environmental 
liability grew almost $105 billion--between 2011 and 2017 grew 
almost $105 billion, from $163 billion to $268 billion.
    In the same period, EM spent approximately $40 billion. 
Similarly, in the past two fiscal years, environmental 
liability grew by $122 billion with DOE spending only $12 
billion on cleanup activities.
    In 2017, GAO added the Federal Government's environmental 
liability to its high risk list and it remained on GAO's high 
risk list for 2019.
    Further, GAO has conducted additional work surrounding 
DOE's environmental liability including a report that was 
released in February as a result of what became a bipartisan 
request by this committee to examine the performance of EM's 
operational activities and the role of performance assessments 
in informing those activities.
    GAO's concern stems from the fact that while the number of 
sites to be cleaned up have decreased, the cleanup costs have 
increased and the timetable for completion keeps getting 
delayed.
    And as the timetable for cleanup completion is delayed, 
costs continue to go up, especially since about 40 percent of 
the money EM spends on cleanup costs goes toward minimum safe 
operations, or ``min-safe,'' costs to maintain the sites, 
including costs of power, staffing, and security.
    Additionally, according to GAO, DOE should conduct a root 
cause analysis to determine why the cleanup costs, especially 
the $110 billion increase, went up so much.
    GAO has also found that EM does not follow program 
management leading practices or project management best 
practices. GAO's concern is that DOE could be wasting billions 
of dollars and not implementing the cleanup program efficiently 
and effectively.
    Lastly, GAO reported that DOE does not have a strategy on 
how to make the cleanup program more efficient and effective. 
DOE recognizes the need to strengthen program management 
oversight accountability to ensure value for the American 
taxpayer.
    DOE and EM are working towards completion and closure of 
the mission. But we still have decades to go. In the meantime, 
it is critical that we understand what EM is doing and changing 
in order to clean up the remaining sites in a timely cost-
effective manner.
    This mission is an important one, not just for the sake of 
completing cleanup but also to ensure that the environment and 
public health in the communities where the sites are located 
are protected.
    I look forward to hearing from Assistant Secretary White on 
ways DOE and EM plan to evaluate, strengthen, and clean up the 
mission and how EM plans to address GAO's concerns.
    I thank the witnesses for being here today, and I yield 
back.
    [The prepared statement of Mr. Guthrie follows:]

                Prepared Statement of Hon. Brett Guthrie

    Thank you, Chair DeGette, for holding this important 
hearing.
    The U.S. Department of Energy's Office of Environmental 
Management (EM) was created in 1989 to clean up the radioactive 
legacy of the Cold War and was tasked with cleaning up 107 
sites across the country. As part of this effort, EM is 
responsible for completing the safe cleanup of environmental 
legacy resulting from five decades of nuclear weapons 
development and Government-sponsored nuclear energy research.
    To date, DOE has completed cleanup at 91 of its 107 sites, 
with 16 sites remaining. While 85 percent of the original 107 
sites have been cleaned up, the remaining 16 sites have been 
described to the committee as the most challenging sites.
    EM still has a lot of work to do. This work has been 
ongoing for decades and will continue for decades to come, with 
some of the current sites not estimated to be cleaned up until 
2070 or 2075.
    One of the ways that EM's work is measured and estimated is 
through the amount of environmental liabilities, which is the 
estimated cost to cleanup areas where Federal activities have 
contaminated the environment. To develop its environmental 
liability estimates, EM uses the approved life cycle costs for 
all cleanup projects at each of its sites and adds any 
adjustments and accounts for any potential cost decreases.
    The United States Government's environmental liability was 
$577 billion in Fiscal Year (FY) 2018 and was the third highest 
liability listed in the Financial Report of the United States 
Government. DOE is the driver of most of this liability, 
accounting for $494 billion, due to its nuclear cleanup 
responsibilities. Most of DOE's liability--$377 billion out of 
the $494 billion--lies with the cleanup costs associated with 
sites under the responsibility of the EM. DOE's financial 
statement for fiscal year 2018 showed a sharp increase in 
environmental liability--more than $110 billion.
    EM's environmental liability has grown annually and 
outpaced the agency's annual spending on cleanup activities. 
For example, between FY 2011 and FY 2017 EM's environmental 
liability grew almost $105 billion-from $163 billion to $268 
billion. In that same period, EM spent approximately $40 
billion. Similarly, in the past two fiscal years, the 
environmental liability grew by $122 billion, with DOE spending 
only $12 billion on cleanup activities.
    In 2017, GAO added the Federal Government's environmental 
liability to its high risk list, and it remained on GAO's high 
risk list for 2019. Further, GAO has conducted additional work 
surrounding DOE's environmental liability, including a report 
that was released in February as a result of what became a 
bipartisan request by this committee, which examined the 
performance of EM's operational activities and the role of 
performance assessments in informing those activities.
    GAO's concerns stem from the fact that while the number of 
sites to be cleaned up have decreased, the cleanup costs have 
increased and the timetable for completion keeps getting 
delayed. And, as the timetable for cleanup completion is 
delayed, costs continue to go up, especially since about 40 
percent of the money EM spends on cleanup costs goes toward 
minimum safe operations, or ``min-safe'' costs to maintain the 
sites, including costs for power, staffing, and security.
    Additionally, according to GAO, DOE should conduct a root 
cause analysis to determine why the cleanup costs, especially 
the $110 billion increase, went up so much. GAO also found that 
EM does not follow program management leading practices or 
project management best practices. GAO's concern is that DOE 
could be wasting billions of dollars, and not implementing the 
cleanup program efficiently and effectively. Lastly, GAO 
reported that DOE does not have a strategy on how to make the 
cleanup program more efficient and effective.
    DOE recognizes the need to strengthen program management, 
oversight, and accountability to ensure value for the American 
taxpayer. DOE and EM are working towards completion and closure 
of the mission, but we still have decades to go. In the 
meantime, it is critical that we understand what EM is doing-
and changing-in order to clean up the remaining sites in a 
timely and cost-effective manner.
    This mission is an important one, not just for the sake of 
completing cleanup, but also to ensure that the environment and 
public health in the communities where these sites are located 
are protected. I look forward to hearing from Assistant 
Secretary White on ways DOE and EM plan to evaluate and 
strengthen the cleanup mission and how EM plans to address 
GAO's concerns.I thank our witnesses for being here today. I 
yield back.

    Ms. DeGette. I thank the gentleman.
    The Chair now recognizes the chair of the full committee, 
Mr. Pallone, for 5 minutes for purposes of an opening 
statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair.
    Today, the committee continues its oversight of the DOE and 
the Office of Environmental Management's efforts to clean up 
the legacy nuclear waste sites remaining from the Cold War.
    Decades of producing materials for our country's nuclear 
weapons program has led to a massive and ongoing cleanup of 
nuclear and hazardous waste and these sites contain some of the 
most dangerous materials on earth and some of the costliest and 
technically challenging to clean up.
    Waste at these sites consists of millions of gallons of 
radioactive waste, thousands of tons of spent nuclear fuel and 
other nuclear material, as well as contaminated soil and water.
    And the consequences for not getting this right are 
enormous to the environment, to human health, and to the 
taxpayer.
    The U.S. Government is responsible for costs associated 
with cleaning up these contaminants at Federal sites and 
facilities, and the estimated cost of future environmental 
cleanup is referred to as ``environmental liability.''
    DOE is currently responsible for over 80 percent of the 
Federal Government's total environmental liability, which 
includes ongoing DOE cleanup efforts at 16 sites around the 
country, and the costs associated with this effort are vast and 
rapidly growing.
    As of this year, it has climbed to a staggering $377 
billion. And while one would expect that, over time, as more 
money is spent, that DOE's environmental liability would be 
decreasing.
    But just the opposite is occurring. Since 2011, DOE has 
seen environmental liabilities grow by over $200 billion while 
spending in the same period was $48 billion.
    So even though we are spending billions each year, 
environmental liabilities are growing at a level that is 
outpacing DOE's spending.
    In 2017 and again in 2019, the GAO included the Federal 
Government's environmental liabilities on its high risk list. 
GAO continues to find numerous management challenges with how 
DOE is managing the cleanup effort.
    For example, according to GAO, DOE has not conducted a root 
cause analysis to learn why the runaway growth in environmental 
liabilities has occurred, and that means DOE does not know with 
certainty why this number keeps climbing.
    And GAO has also found that the Department of Energy fails 
to follow program and project management leading practices, and 
this is all extremely concerning considering that the 
Department of Energy has also inconsistently reported on its 
cleanup status to Congress, and information that has been 
reported has often been incomplete or misleading.
    So the Department's recent budget materials for EM also do 
not reflect the funding EM anticipates is needed to meet its 
future cleanup responsibilities and I appreciate that Assistant 
Secretary White is taking positive steps which appear to 
reflect her understanding of the significant challenges facing 
the Department of Energy.
    But DOE needs to answer some key questions about how they 
are managing the cleanup program and this committee needs to 
know if EM is planning to make the changes that GAO says are 
necessary, what resources it needs to make these changes, and 
who is responsible for implementing these changes.
    So, finally, I want to say that the Department needs the 
money to do these cleanups, obviously. I don't understand how 
the Trump administration's proposed budget cuts to this office 
would help DOE accomplish this enormous mission.
    As we look forward to the difficult cleanup tasks ahead, 
this committee will continue to call on the Government 
Accounting Office to conduct its important work in this area 
and will continue to demand that the Department of Energy take 
tangible actions necessary to build a disciplined and effective 
cleanup program.
    So, Madam Chair, these are some of the most costly, 
dangerous, and difficult sites in the world to clean up, and so 
I appreciate what you are doing in having this hearing because 
we really have to get this right.
    I don't think anybody else wants my time so I will yield 
back, Madam Chair. Thank you.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Today, the committee continues its oversight of the 
Department of Energy (DOE), and the Office of Environmental 
Management's (EM) efforts to clean up the legacy nuclear waste 
sites remaining from the Cold War.
    Decades of producing materials for our country's nuclear 
weapons program has led to a massive and ongoing cleanup of 
nuclear and hazardous waste.
    These sites contain some of the most dangerous materials on 
earth and some of the costliest and technically challenging to 
cleanup. Waste at these sites consists of millions of gallons 
of radioactive waste, thousands of tons of spent nuclear fuel 
and other nuclear material, as well as contaminated soil and 
water. The consequences for not getting this right are 
enormous-to the environment, human health, and the taxpayer.
    The U.S. Government is responsible for costs associated 
with cleaning up these contaminants at Federal sites and 
facilities, and the estimated cost of future environmental 
cleanup is referred to as environmental liability.
    DOE is currently responsible for over 80 percent of the 
Federal Government's total environmental liability, which 
includes ongoing DOE cleanup efforts at 16 sites around the 
country.
    The costs associated with this effort are vast and rapidly 
growing. As of this year, it has climbed to a staggering $377 
billion.
    One would expect that over time, as more money is spent, 
DOE's environmental liability would be decreasing. But just the 
opposite is occurring. Since 2011, DOE has seen environmental 
liabilities grow by over $200 billion, while spending in the 
same period was $48 billion.
    So, even though we are spending billions each year, 
environmental liabilities are growing at a level that is 
outpacing DOE's spending.
    In 2017, and again in 2019, the Government Accountability 
Office included the Federal Government's environmental 
liabilities on its High Risk List.
    GAO continues to find numerous management challenges with 
how DOE is managing the cleanup effort.
    For example, according to GAO, DOE has not conducted a root 
cause analysis to learn why the runaway growth in environmental 
liabilities has occurred. That means DOE does not know with 
certainty why this number keeps climbing.
    GAO has also found that DOE fails to follow program and 
project management leading practices.
    This is all extremely concerning considering that DOE has 
also inconsistently reported on its cleanup status to Congress, 
and information that has been reported has been incomplete or 
misleading. DOE's recent budget materials for EM also do not 
reflect the funding EM anticipates is needed to meet its future 
cleanup responsibilities.
    I appreciate that Assistant Secretary White is taking 
positive steps which appear to reflect her understanding of the 
significant challenges facing DOE. But DOE needs to answer some 
key questions about how they are managing the cleanup program. 
This committee needs to know if EM is planning to make the 
changes GAO says are necessary, what resources it needs to make 
these changes, and who is responsible for implementing these 
changes.
    Finally, DOE needs money to do these cleanups- and I don't 
understand how the Trump administration's proposed budget cuts 
to this office would help DOE accomplish this enormous mission.
    As we look forward to the difficult cleanup tasks ahead, 
this committee will continue to call on GAO to conduct its 
important work in this area and will continue to demand the DOE 
take tangible actions necessary to build a disciplined and 
effective cleanup program.
    Madam Chair, these are some of the most costly, dangerous, 
and difficult sites in the world to cleanup. We must get this 
right.

    Ms. DeGette. The gentleman yields back.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Walden, for 5 minutes for purposes of an opening 
statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well, thank you, Madam Chair, and I appreciate 
you holding this hearing about the growing environmental 
liabilities associated with the U.S. Department of Energy's 
nuclear waste cleanup and I can't help but--after my friend 
from New Jersey described the President's budget, and I 
disagree with it in some of these areas, at least the President 
put out a budget, unlike our Democrat majority that punted on 
the issue of a budget this time. This subject is of enormous 
importance to the Nation, especially for local communities near 
contaminated sites such as those at Hanford.
    We know all too well the issues that the Office of 
Environmental Management handles. The threat of potential 
environmental disaster and pollution persists in the minds of 
Oregonians and people throughout the Pacific Northwest.
    As you all know, we have 56 million gallons of Cold War-era 
toxic nuclear waste sitting in corroding and leaking metal 
tanks, some of which were built to last a whopping 20 years. It 
has been more than 20 years since World War II.
    Hanford is a worrisome neighbor for us and the Federal 
Government has not always been a trusted and reliable partner. 
It also presents a difficult and complex challenge with a scale 
that is difficult to appreciate on paper.
    The Hanford site itself is nearly half the size of Rhode 
Island--half the size of Rhode Island. In August of 2017, 
Secretary Perry and I went out to Hanford to get a firsthand 
look and an evaluation of the work being done there to clean up 
that site. Indeed, there is a lot of work going on.
    But there is plenty left to do, as you all know. But the 
end goal is to mobilize high-level nuclear waste into a glass 
material similar to this puck that they gave us out there. By 
the way, this is not actually nuclear waste. I would just point 
that out. It is not exactly radioactive.
    This difficult work must be done as safely and efficiently 
as possible and in a cost-effective way. Cleaning up the waste 
at Hanford and at other sites across the Nation is a top 
priority and under my leadership last Congress on this 
committee we made a bipartisan request that the U.S. Government 
Accountability Office, known as the GAO, examine this issue of 
performance management at the cleanup sites under the control 
of DOE's Environmental Management, or EM.
    EM is responsible for remediating the environmental 
contamination attributable to the Nation's nuclear weapons 
systems including the cleanup of liquid nuclear tank waste, 
stabilization, and packaging of nuclear materials and 
decommissioning--decontaminating closed nuclear facilities.
    The financial costs of DOE's environmental liabilities are 
high and we all know that. In total, DOE's EM liabilities are 
$377 billion with DOE's total environmental liabilities 
reaching almost $500 billion.
    These numbers increased by $110 billion between fiscal 2017 
and 2018 due in large part to DOE recalculating the baseline 
costs for the Hanford site, and I understand that is the first 
time that's been done in basically a decade since 2009.
    A few months ago, GAO issued our requested report and we 
appreciate your work on this matter, and found accountability 
to be lacking in key areas such as whether or not cleanup 
performance is cost-efficient and effective, and according to 
your report, DOE and EM have not established classification 
requirements such that most cleanup activities would be treated 
as projects subject to more stringent requirements instead of 
operational activities.
    So as a result, there is greater risk to cost overruns and 
scheduled delays, and we have, obviously, seen both of those 
over the years at Hanford.
    DOE spends, roughly, $6 billion a year on cleanup. But we 
don't always have a clear visibility into what that means in 
terms of completing the mission.
    EM reports on the amount of nuclear cleanup completed each 
year but for that amount of money spent how many radioactive 
tanks should have been treated?
    How much soil and water should have been remediated? We 
don't have clear answers to these questions because, according 
to GAO, EM's performance measures for operations activities do 
not always provide a clear and reliable picture.
    Although EM has undertaken several studies to address the 
growing costs in its cleanup program, GAO found that EM had not 
conducted a formal root cause analysis to identify the causes 
for the growth in its environmental liability.
    So these issues and others have been acknowledged by the 
Department and Environmental Management and has proposed or is 
exploring changes to allow for quicker and more cost-effective 
cleanup of the remaining sites. EM is pursuing an end-state 
contracting model for several sites and using a multifaceted 
approach to address liabilities including the use of current 
cleanup technologies for waste, composition, and risk, updating 
key project life cycle estimates, and providing transparency 
when it comes to liability data.
    So I look forward to hearing more from the Department today 
on its actions and proposals and, ultimately, however to 
progress on the cleanup of the waste at Hanford and other sites 
requires a safe, secure, and permanent storage location for the 
waste.
    And while this hearing should help get the cleanup efforts 
on a better track, Yucca Mountain is the cornerstone of the 
Nation's nuclear waste disposal and we need to move forward 
again, this time in this Congress, again in a bipartisan way, 
to improve the performance and effectiveness of cleanup and 
build a durable solution at Yucca.
    This committee led on that effort under John Shimkus' 
leadership on the subcommittee and we passed the bill with 340 
votes in the House. It is time to do it again and get the 
Senate to put it on the President's desk.
    With that, Madam Chair, I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Thank you, Chair DeGette. I appreciate you holding this 
hearing about the growing environmental liabilities associated 
with the U.S. Department of Energy's (DOE) nuclear waste 
cleanup.
    This subject is of enormous importance to the Nation, and 
especially for local communities near contaminated sites, such 
as those at Hanford. We know all too well the issues that the 
Office of Environmental Management (EM) handles. The threat of 
potential environmental disaster and pollution persists in the 
minds of Oregonians and people throughout the Pacific 
Northwest. With 56 million gallons of Cold War era toxic 
nuclear waste sitting in corroding and leaking metal tanks, 
some of which were built to last just 20 years, Hanford is a 
worrisome neighbor and the Federal Government has not always 
been a trusted and reliable partner.
    It also presents a difficult and complex challenge with a 
scale that's difficult to appreciate on paper. The Hanford site 
itself is nearly half the size of Rhode Island. In August of 
2017, Secretary Perry and I went out to Hanford to get a 
firsthand look at the work being done to clean up the site. 
There is plenty left to do, but the end goal is to immobilize 
high-level nuclear waste into a glass material similar to this 
puck. This difficult work must be done as safely and 
efficiently as possible in a cost-effective way.
    Cleaning up the waste at Hanford and at other sites across 
the Nation is a top priority. Under my leadership last 
Congress, we made a bipartisan request that the U.S. Government 
Accountability Office (GAO) examine the issue of performance 
management at the cleanup sites under the control of DOE 
Environmental Management-or EM.
    EM is responsible for remediating the environmental 
contamination attributable to the Nation's nuclear weapons 
program, including the cleanup of liquid nuclear tank waste, 
stabilization, and packaging of nuclear materials, and 
decommissioning and decontaminating closed nuclear facilities. 
The financial costs of DOE's environmental liabilities are 
high--in total, DOE's EM liabilities are $377 billion, with 
DOE's total environmental liabilities reaching almost $500 
billion. These numbers increased by $110 billion between fiscal 
year 2017 and 2018 due in large part to DOE recalculating the 
baseline costs for the Hanford site.
    A few months ago, GAO issued our requested report, and 
found accountability to be lacking in key areas such as whether 
cleanup performance is cost-efficient and effective. According 
to the GAO, DOE and EM have not established classification 
requirements such that most cleanup activities would be treated 
as projects, subject to more stringent requirements, instead of 
operational activities. As a result, there are greater risks to 
cost overruns and schedule delays.
    DOE spends roughly $6 billion a year on cleanup, but we 
don't always have clear visibility into what that means in 
terms of completing the mission. EM reports on the amount of 
nuclear cleanup completed each year, but for that amount of 
money spent, how many radioactive tanks should have been 
treated? How much soil and water should have been remediated? 
We don't have clear answers to these questions because, 
according to GAO, EM's performance measures for operations 
activities do not always provide a clear and reliable picture.
    Although EM has undertaken several studies to address the 
growing costs in its cleanup program, GAO found that EM had not 
conducted a formal root cause analysis to identify the causes 
for the growth in its environmental liabilities.
    These issues and others have been acknowledged by the 
Department, and EM has proposed or is exploring changes to 
allow for quicker and more cost-effective cleanup of the 
remaining sites. EM is pursuing an end-state contracting model 
for several sites, and using a multifaceted approach to 
addressing liabilities including the use of current cleanup 
technologies for waste composition and risk; updating key 
project lifecycle estimates; and providing transparency when it 
comes to liability data. I look forward to hearing more from 
the Department today on its actions and proposals.
    Ultimately, however, true progress on the cleanup of the 
waste at Hanford and other sites requires a safe, secure, and 
permanent storage location for the waste. While this hearing 
should help get the cleanup efforts on a better track, Yucca 
Mountain is the cornerstone of the Nation's nuclear waste 
disposal. We need to move forward in a bipartisan way to 
greatly improve the performance and effectiveness of the 
cleanup and build a durable solution at Yucca.
    I welcome today's witnesses and thank them for their 
attention to these important issues.

    Ms. DeGette. The gentleman yields back, and I thank him.
    And I agree. I think it is time for another trip out to 
look at Hanford and Yucca. I was there many, many years ago 
with Joe Barton when he was chair of this committee. So we 
should do it.
    I ask unanimous consent that the Members' written opening 
statements be made part of the record, and without objection, 
so ordered.
    I would now like to introduce our panel of witnesses for 
today's hearing: the Honorable Anne White, who is the Assistant 
Secretary, Office of Environmental Management, Department of 
Energy; David C. Trimble, Director, Natural Resources and 
Environment of the Government Accountability Office. Thank you 
both so much for being here today.
    And you are aware that the committee is holding an 
investigative hearing and when doing so has the practice of 
taking testimony under oath.
    Do either of you have any objections to testifying under 
oath?
    Ms. White. No.
    Mr. Trimble. No.
    Ms. DeGette. Let the record reflect the witnesses have 
responded no. The Chair then advises you that under the rules 
of the House and the rules of the committee you are entitled to 
be accompanied by counsel.
    Do either of you desire to be accompanied by counsel during 
your testimony today?
    Ms. White. No.
    Mr. Trimble. No.
    Ms. DeGette. Let the record reflect the witnesses have 
responded no. If you would, please rise and raise your right 
hand so you may be sworn in.
    [Witnesses sworn.]
    Ms. DeGette. You may be seated. Let the record reflect that 
the witnesses have responded affirmatively, and you are now 
under oath and subject to the penalties set forth in Title 18, 
Section 1001 of the United States Code.
    The Chair will now recognize the witnesses for a 5-minute 
summary of their written statements. In front of you is your 
microphone, that you have already found, and a series of 
lights.
    The light will turn yellow when you have a minute left and 
then red to indicate your time has come to an end.
    Ms. White, you are now recognized for 5 minutes.

   STATEMENTS OF ANNE WHITE, ASSISTANT SECRETARY, OFFICE OF 
 ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY, AND DAVID C. 
     TRIMBLE, DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, 
                GOVERNMENT ACCOUNTABILITY OFFICE

                    STATEMENT OF ANNE WHITE

    Ms. White. Thank you.
    Chair DeGette, Ranking Member Guthrie, and members of the 
subcommittee, thank you for the opportunity to be here. I 
appreciate the time your staff has spent with me over the past 
few months.
    We have had very constructive meetings. I look forward to 
discussing efforts underway to reduce the liabilities and 
enhance contracting approaches to propel the cleanup mission 
towards safe completion sooner and at a responsible cost to the 
American taxpayer.
    Madam Chair, the Government's nuclear defense programs 
played an integral role in ending World War II and the Cold 
War. Our Nation was unified in its effort to end those wars.
    That kind of resolve and unity of purpose is needed today 
as we address the resulting environmental legacy. From day one, 
Secretary Perry has made the cleanup mission a priority.
    EM has completed cleanup at major sites over the past 20 
years and made significant progress at the remaining 16 sites. 
Rocky Flats, Fernald, and Mound were completed. Six of the nine 
reactors along the Columbia River at Hanford were cocooned.
    We treated 10 million gallons of tank waste and have poured 
4,180 canisters of high-level waste glass at Savannah River 
Site. We remain committed to completing cleanup so that our 
host communities can envision a vibrant future with enduring 
and diverse economic opportunities.
    The Department also acknowledges that EM is the largest 
program of its kind in the world and represents one of the 
Government's top financial liabilities.
    The liability increases that are of concern to me and to 
this subcommittee did not accrue overnight. But understanding 
some of the causes enables EM to offer solutions now.
    We can continue to live in the past or we can choose to 
understand the past, make course corrections, and move forward 
with collaborative solutions. It is time to choose the latter.
    Our knowledge and technology have matured significantly 
over the years. We need to employ cleanup technologies that are 
reflective of the latest knowledge in the areas of waste 
composition and risks, lessons learned over decades of cleanup, 
and attainable end states to drive down costs of these 
liabilities.
    Those efforts start with truly getting to the bottom of 
what we are dealing with using accurate up-to-date information. 
EM just underwent an independent review of the remaining 
cleanup of the entire Hanford site and it is providing a new 
level of transparency when it comes to liability data.
    Having been on the contractor side of this program for 25 
years I consider myself informed on the program's successes and 
its failures. I have become well acquainted with the numerous 
GAO reports that have provided EM with recommendations.
    Implementing the changes recommended in those reports is 
part of the challenge I agreed to take on once confirmed and I 
reiterate my pledge to personally review GAO recommendations 
and continue with development and refinement of plans that 
address those recommendations.
    I have established a team of experienced contract and 
project management experts across the DOE complex to undertake 
the transformational initiatives required to fulfil EM's 
mission.
    EM is making real progress in implementing a number of GAO 
recommendations. We are implementing a 10-year strategic 
planning options analysis to evaluate current approaches and 
other recently identified opportunities that could reduce risk 
and life cycle costs.
    With billions of dollars in procurements coming up at some 
of our largest sites over the next few years, EM has a 
significant opportunity to improve procurement processes, 
contract management, and oversight performance.
    One of our most transformative initiatives is a new end-
state contracting model that will greatly enhance contract 
management. It will provide for better requirements definition, 
reduce risk by reducing task order time horizons and improve 
contract incentives to drive performance.
    Today, we face some important decisions about the 
trajectory of the cleanup mission. I view this as an 
opportunity to employ the most successful and sustainable EM 
program.
    Madam Chair, EM's greatest successes have historically been 
achieved through hard work of our leaders determined to get 
things done. I appreciate the support Congress has shown for 
the cleanup mission and I look forward to working with the 
subcommittee to deliver cost-conscious site completions that 
protect the public, worker safety, and the environment.
    Thank you.
    [The prepared statement of Ms. White follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you so much.
    Now it is time for Mr. Trimble to testify, 5 minutes. You 
are recognized.

                 STATEMENT OF DAVID C. TRIMBLE

    Mr. Trimble. Chair DeGette, Ranking Member Guthrie, and 
members of the subcommittee, my testimony today will focus on 
DOE's large and growing environmental liability and GAO's 
recent work on longstanding management weaknesses at EM that 
have limited the effectiveness of the cleanup program.
    What is environmental liability? It is the estimated cost 
to clean up contamination from Government activities. This is 
challenging for DOE and EM as they are responsible for cleaning 
up radioactive and hazardous waste at sites across the country 
generated during weapons production from the Manhattan Project 
through the Cold War.
    This waste poses risks to both the public and the 
environment. EM must address contaminated soil and ground 
water, decommissioned contaminated buildings, and construct and 
operate facilities to treat millions of gallons of radioactive 
waste.
    These contaminated sites are often located near large 
rivers and ground water sources for nearby communities. Why 
does this issue deserve your attention now?
    In short, DOE's environmental liabilities are huge and have 
now reached a half a trillion dollars. Further, environmental 
liabilities are now the Federal Government's third-highest 
liability and DOE accounts for 85 percent of the total.
    In addition, this problem is getting worse as the growth 
and the liability is vastly outpacing the EM's ability to 
reduce it. As has been noted, over the last 7 years, EM spent 
$48 billion on cleanup. But the liability did not decrease.
    Instead, it increased by $214 billion. Further, we noted in 
our high risk report that DOE's liability numbers likely 
understate the true liability and will continue to grow.
    EM receives about $7 billion a year in funding each year 
and actually has fewer sites to clean up than it did in 2011. 
So why the runaway cost growth?
    Notably, over 40 percent of EM's budget does not go to 
cleanup activities but, rather, simply to maintain its sites. 
At several locations these overhead costs consume over half of 
the site's budget.
    Most concerning, though, is that EM has not done a root 
cause analysis to understand the factors driving this cost 
growth. GAO's recent work has focused on management of the EM 
cleanup program. Here are some of our key findings.
    EM does not have a nationwide cleanup strategy and relies 
primarily on individual sites to establish their own 
priorities, which do not always balance overall risks and 
costs.
    EM does not manage its work as an integrated program. A 
recent work compared DOE's cleanup policy to nine leading 
program management practices and found EM did not meet any of 
them.
    These practices include basic tools like having a program 
management plan, a schedule, and measuring program performance. 
We also found that EM does not follow most project management 
practices.
    Specifically, EM's policy did not meet nine of 12 leading 
practices reexamined. These practices include such things as 
identifying root causes of problems and developing a corrective 
action plan to address cost overruns.
    EM's shortcomings in project management are especially 
notable because of the project other parts of DOE have made in 
this area. Why the disconnect? EM does not classify the vast 
majority of its work as projects. This approach has allowed EM 
to avoid DOE's stricter requirements for project management.
    Our work has also found that the data EM uses to track and 
report on its cleanup work has significant limitations. This is 
important because bad performance data is similar to driving a 
car without working gauges on your dashboard.
    Notably, cleanup milestones for EM sites across the country 
are routinely changed when in danger of being missed. But these 
changes are not tracked or recorded.
    So why have the problems of EM's cleanup mission not 
received more attention? One reason is that EM has not 
consistently reported to Congress on its cleanup efforts.
    Under the 2011 defense bill, EM must annually report 
estimated cost and funding needs for future cleanup activities. 
EM's 2017 submission to Congress was only the second one since 
2011, and it did not include a detailed list of planned cleanup 
actions or required funding.
    GAO is encouraged by the actions EM is reportedly planning 
to address our recommendations. Let me note that three of the 
criteria GAO uses in assessing progress in Federal high risk 
are particularly relevant to EM at this time.
    First, EM needs a comprehensive plan for the changes that 
need that be made. Second, EM needs to understand and address 
the staff skills needed to make and sustain these changes. And 
third, EM will need to monitor its progress against its plan to 
adapt and adjust as necessary.
    In closing, the actions EM needs to take involve 
significant cultural change at DOE headquarters, the sites, and 
the contractors. The scope of this effort will require 
sustained support from senior DOE leadership, Congress, as well 
as key stakeholders.
    Thank you again for the committee's commitment to oversight 
of this important issue.
    [The prepared statement of Mr. Trimble follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you, Mr. Trimble. It is now time for 
Members to ask you questions. The Chair recognizes herself for 
5 minutes.
    I want to begin by getting a greater understanding of the 
challenges facing DOE's Environmental Management office in 
cleaning up these sites.
    Mr. Trimble, is it fair to say that the remaining sites 
where cleanup work remains are some of the most complex to 
clean up and will be the most costly?
    Mr. Trimble. Absolutely. The sites that are left are some 
of the biggest and scariest. Hanford and Savannah River, of 
course, pop to mind.
    Ms. DeGette. Yes. OK.
    You testified that in fiscal year 2011 the environmental 
liability facing EM was estimated to be $163 billion. Since 
then, that number has climbed each year and now the liability 
is estimated to be $377 billion. That's a $214 billion increase 
in just 7 years.
    Now, it is my understanding that EM has been unable to 
articulate to GAO why the environmental liability keeps growing 
at a rapid pace like that. Is that true?
    Mr. Trimble. Yes, that is true.
    Ms. DeGette. And it is also my understanding that EM's 
environmental liability could keep growing, and if that happens 
I was just saying to Mr. Guthrie increasing liability not only 
poses a threat to the taxpayer but to the environment because 
operations might need to be delayed or even deferred.
    So, very briefly, I just would like you to tell me would 
delaying work on the projects increase the risk to both the 
taxpayer and the environment?
    Mr. Trimble. Absolutely. Delays increase the overall cost 
of the work and when you delay the work it means those 
communities face the environmental risks for that much longer.
    Ms. DeGette. Now, in your testimony, Mr. Trimble, you 
describe how EM is facing a number of challenges about how it 
manages its environmental cleanup programs.
    For example, GAO found that EM is not following a number of 
best program and management practices. Is that correct?
    Mr. Trimble. Yes, that is correct.
    Ms. DeGette. And GAO also found that EM has not resolved 
longstanding management challenges and doesn't have a 
programwide cleanup strategy to this day to address increased 
cleanup costs. Is that right?
    Mr. Trimble. That is correct.
    Ms. DeGette. Now, I think you testified in your--in your 
statement that they really need to develop three things: a 
comprehensive plan, staff skills, and a way to monitor the 
progress and they also need cultural change over there.
    Is that, in essence, what needs to happen?
    Mr. Trimble. Yes. The scope of these changes are brought 
and significant, and when you make those kind of changes it 
invariably involves cultural change in the organization.
    Ms. DeGette. And so I turn to you, obviously, Secretary 
White, and want to ask you what is your position on those 
recommendations that GAO has made?
    Ms. White. So during my confirmation hearing I talked 
specifically about the recommendations and that I am looking 
forward to implementing them.
    Having been in the field for quite some time, there were 
cases where I said wow, GAO really has that right. So----
    Ms. DeGette. Uh-huh. But what about in particular what Mr. 
Trimble says, the comprehensive plan, the staff skills, 
monitoring the progress and the cultural change?
    Ms. White. Absolutely. We are moving out on all of those 
recommendations. They are--we will respond to those with all 
concur and we have already begun to revise our program and 
project management policy--the cleanup policy to ensure it 
incorporates the best management practices pointed out by GAO.
    For the first time in the history of the program we have 
all of the sites' life cycle baselines loaded into one 
centralized system in headquarters so that we will be able to 
monitor progress and track changes and look at milestones and 
have meaningful metrics that are going to all us to more 
carefully monitor performance, very consistent with the GAO 
recommendations.
    Ms. DeGette. Thank you, and I guess I want to ask you, 
because--and I know more people are going to ask about this, 
but the budget constraints--are those going to impact your 
ability to implement these changes?
    Ms. White. So I don't believe so because the changes that 
we are making are going to be at headquarters mainly and it is 
going to involve, as we say, new kind of communication with the 
sites, and right now that is called program direction funding. 
We have plenty of funding to do so.
    Ms. DeGette. And what is your opinion about that, Mr. 
Trimble?
    Mr. Trimble. Well, we have not looked directly at the 
budget. My----
    Ms. DeGette. Well, what about the other structural changes 
at the----
    Mr. Trimble. Yes. What I would say is that I think part of 
the effort, given the scope of the changes that we are talking 
about, that the EM would benefit from a thorough analysis of 
the resources it needs to carry out these changes because if 
you implement program and project management best practices you 
need staff with different skills. Or the staff may be there. I 
am not sure. But you have to do that assessment and you either 
have to train or hire additional skills who are expert in these 
areas to actually successfully execute the change in direction.
    Ms. DeGette. Thank you, and thanks to both of you.
    The Chair now recognizes Mr. Guthrie for 5 minutes.
    Mr. Guthrie. Thank you. Thank you, Chair, for the 
recognition, and these are to Secretary White.
    Did the taxpayer get good value for the $6 billion EM, 
roughly, spent last fiscal year on nuclear waste cleanup?
    Ms. White. I think by and large, yes. We do struggle at 
Hanford because of the complexity and some of the costs 
associated with carrying out our work there. But I believe the 
taxpayer got good value for their money.
    Mr. Guthrie. OK. It leads----
    Ms. White. We can do better, though.
    Mr. Guthrie. OK. This leads to my next question. So I think 
you might answer, but I was going to--are you implementing 
reforms to ensure that the taxpayer is getting good value for 
cleanup procedures and how will those reforms help better 
account for EM's performance for dollars spent?
    Ms. White. Yes. So one of the major things we are doing is 
our end-state contracting approach and very similar to Rocky 
Flats is--it takes that same kind of process but applies it to 
a smaller time period and not necessarily closure.
    And what that is going to allow us to do is that we have 
our preaward, we select and we are selecting based on personnel 
first because in my experience in the field it is having the 
right personnel, not necessarily the right company or group of 
companies.
    So that is our first criteria. Once we make the award then 
we are sitting down with the contractor and partnering to 
figure out, OK, what is the first task order going to look 
like. It could be 2 years of work. It could be 3 years of work. 
It will depend on the site.
    But what that does is, as one of my predecessors said, it 
allows us to chunk the work so that we can better manage it 
rather than having these 10-year periods of performance that 
can be very difficult to monitor and measure and look after.
    So this is going to put us on a much shorter time horizon 
which will allow us to better understand what exactly it is it 
we are buying and have the scope very well understood, and once 
that happens that is what allows us to really monitor progress 
and ensure that we are spending money effectively.
    So that is one of the biggest things. The other thing we 
are moving out on and have been looking at for a while is our 
existing contracts have performance evaluation measurements 
plans and they are developed at the site level. We have put 
together--these are called PEMPs--we have put together a PEMP 
review board and we are going to be looking very carefully at 
the PEMPs as they roll out, again, to ensure we are not just 
paying fee for contractors to show up and do their base work. 
We want to be paying contractors to really exceed and excel.
    So that is one of the things we are doing. Same thing with 
a fee determination board. We stood one up at headquarters so 
that we can be reviewing how a fee is getting paid to 
contractors and ensure some consistency because some fee 
determination officials are easier graders than others and so 
we want to just try and drive some consistency there about what 
our expectations are at the programmatic level.
    Mr. Guthrie. OK. Thank you.
    And while DOE's most recent financial statements have shown 
a sharp increase in environmental liability over the last 
fiscal year, DOE's liability has been increasing for years.
     For example, between 2011 and 2017, EM's liability grew 
$105 billion. Why does DOE's environmental liability keep going 
up?
    Ms. White. We are going to find that out.
    Mr. Guthrie. OK.
    Ms. White. We are in the process of doing a detailed root 
cause analysis to have a look. Most what we know intuitively, 
though, is that it is time. Time is money. So as the life cycle 
baselines kick out, the liability goes up. But we are going to 
do a much more detailed analysis than my spidey senses.
    Mr. Guthrie. OK. And, similarly, why do timetables for--
estimated timetables for cleanup keep getting delayed?
    Ms. White. So there are a lot of factors involved there, 
some of which is the regulatory agreements we have at these 
sites by and large are pretty old and we have learned a lot 
since we entered into these agreements, and industry commercial 
disposal options have opened up that were not necessarily 
accounted for previously.
    So that is some of it. Some of it is just not really being 
effective in holding the contractors accountable to complete 
the work scope. There are a number of factors. But putting 
together our program and project management policy I believe is 
going to address a lot of these concerns.
    Mr. Guthrie. I am going to switch to my last questions 
because I only have about 20 seconds. What can Congress do to 
support or assist?
    Ms. White. Just--you have been very supportive in terms of 
funding traditionally. So that would be good.
    Mr. Guthrie. OK. Thank you. Well, that completes my 
questions and I will yield back.
    Mr. Kennedy [presiding]. Chair thanks the gentleman.
    The gentlelady from Florida, Ms. Castor, is recognized for 
5 minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    The Office of Environmental Management, referred to as EM, 
is responsible for cleaning up our Nation's legacy nuclear 
weapons sites.
    Today, EM has completed cleanup at a number of sites. 
Sixteen sites, however, still need cleanup and these are 
probably the most challenging to address.
    GAO has published several reports that express serious 
concerns about EM's management of its nuclear waste sites.
    Mr. Trimble, you have testified that EM does not have a 
programwide strategy to appropriately address its vast and 
growing environmental liability, correct? Why not?
    Mr. Trimble. That--I mean, I think that is the key 
question. I think the answer is that for the longest time, and 
we are talking decades here, the EM program has largely been 
managed through a delegation of key decisions to the sites.
    In many ways, the EM program has operated as a 
confederation of sites rather than as a coherent program with a 
plan and clear direction.
    Ms. Castor. In fact, in a January 2019 report GAO discussed 
EM's lack of a programwide strategy, and here is what you said: 
``Without a strategy that sets national priorities and 
describes how DOE will address its greatest risks, EM lacks 
assurance that it is making the most cost-effective cleanup 
decisions across its site.''
    Will you put that in simple layman's terms? What does it 
mean that EM does not have a strategy and how is this affecting 
cleanup efforts?
    Mr. Trimble. Well, it means that key decisions regarding 
resources and how to address risk are made at the micro level 
at each site. So that collectively when you look at the EM 
budget their risk benefit analysis isn't being done. You will 
get inconsistent decisions regarding priorities and the 
deployment of resources across sites. You may be spending money 
at one site where there is a greater risk at another site.
    The other issues are you just--you end up being very 
inefficient in terms of tackling your most pressing 
environmental tasks.
    Ms. Castor. All right. GAO reported that EM, quote, ``does 
not collect or maintain reliable cost, schedule, or milestone 
data on its projects.
    Ms. White, without reliable cost, schedule, or milestone 
data, how can EM have a clear picture of whether it is 
effectively managing its environmental liabilities?
    Ms. White. That is a great point and that is, again, why we 
have moved out with a number of initiatives to incorporate GAO 
recommendations and that includes the program and project 
management policy which is going to gather the data, ensure 
that we have good sound cost estimating. That is going to be 
extremely important on our end-state contracting model 
because----
    Ms. Castor. And I know you said don't go back and look at 
the past. But, I mean, that is irresponsible. A lack of 
reliable data makes it difficult to effectively manage----
    Ms. White. And it has been--it has been that case for 
decades. So we are trying to change it.
    Ms. Castor. Yes. In fact, in your testimony you say the 
Department views this as an opportunity. The most successful EM 
is a program reflective of the latest scientific knowledge 
about ways to using the most up-to-date cost and schedule 
estimates and that incorporates lessons learned from the last 
30 years of cleanup.
    But for decades EM has tried to develop overall strategies 
to better manage and prioritize risks. Those strategies have 
come and gone. But as we have heard today the problems persist.
    So I am going to ask this as simply as I possibly can. Do 
you have a plan and is your plan supported by the right staff 
and resources so that it will succeed in addressing these 
problems?
    Ms. White. Yes, we do have a plan. As I said, we are going 
to improve our program management and project management.
    Ms. Castor. And I hope getting a handle on the liabilities. 
For you to admit that you don't even have an understanding of 
the liabilities is very serious.
    Ms. White. And, again, at the recommendation of GAO we are 
doing a very detailed root cause analysis of what is driving 
that. Some of it is that scope gets added. Some of it is that 
we learn more about the work at hand.
    So it is a number of factors. But we are going to get to 
the bottom of that and as soon as we do I would love to come 
brief your staff.
    Ms. Castor. Well, if DOE is serious about cleaning up 
environmental hazards, the Department needs to manage its 
efforts professionally and effectively.
    It is long past time for DOE to get its act together and I 
look forward to hearing from the Department on the progress.
    Thank you, and I yield back.
    Mr. Kennedy. The Chair thanks the gentlelady.
    The Chair recognizes the ranking member of the full 
committee, Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman, and again I 
want to thank the work of the GAO and Secretary White. Thank 
you for stepping into this and trying to clean up this mess.
    As you say, it has been going on a long time, and we are 
making progress, but we know there is a lot more work to be 
done.
    It has been mentioned there was a sharp increase in 
environmental liability over the last fiscal year of more than 
$110 billion, growing from $384 billion to $494 billion.
    As I understand it, this was primarily due to an increase 
in the estimated costs of the cleanup at the Hanford site in 
Washington for which the life cycle costs had not been updated 
since 2009.
    Is that correct?
    Ms. White. That is correct.
    Mr. Walden. OK. And does DOE know what specifically made 
Hanford's life cycle costs increase so much over a 10-year 
period?
    Ms. White. It was largely due to expanded time that it is 
going to take, and as Mr. Trimble noted, there is a very high 
hotel cost that is associated with our sites--just keeping the 
lights on, if you will.
    So when you increase the time that costs drags along with 
you. So it is almost all driven by time.
    Mr. Walden. OK. So during the Obama administration they 
never updated this baseline cost is how I would look at this.
    According to information provided to the committee by DOE, 
Hanford accounts for about 64 percent of the Office of 
Environmental Management's fiscal year 2018 liability. What 
about Hanford makes it account for over half of EM's liability?
    Ms. White. It is one of our more complex sites.
    Mr. Walden. Sure is.
    Ms. White. Again, we entered into an agreement in 1989. 
That is a little bit cumbersome right now because things have 
changed.
    The other part of it is though we have made really good 
progress out there. PFP, for example, is moving forward. The K-
Basin sludges are going to remove the radioactive material from 
one of the last reactors and many other things. The whole river 
corridor cleanup project was fairly successful.
    So progress is being made. Our real challenge there is the 
tank waste.
    Mr. Walden. Yes, it is, and I know when Secretary Perry 
made a commitment early on to go out and see it and I toured, 
as I said, the site with him and the National Lab, which does 
amazing work as well.
    It looked like they were finally getting the new equipment 
in place and installed where they could begin to deal with this 
cleanup and so I applaud the work that Secretary Perry and you 
are doing here to kind of finally get this in the right 
direction.
    The question I have too is how many other sites need to 
have their life cycle costs updated and should we expect cost 
increases when those are updated?
    Ms. White. So we have, as I said, loaded all the life cycle 
baselines into a centralized system for the first time in the 
history of the program. We are analyzing that data now.
    I would not expect to see anything like the increase that 
we saw on Hanford.
    Mr. Walden. OK. So this mission has been going on for 
decades. It will continue for decades, unfortunately, for sites 
like Hanford that are not estimated to be cleaned up until 2070 
to 2075, I believe, is the latest estimate.
    While I want to ensure that this mission is completed 
safely there are environmental and safety concerns about the 
length of time it is estimated to take to clean up some of 
these sites.
    For example, it is my understanding some of the tanks at 
Hanford have already started to leak because the tanks weren't 
made to hold waste for this length of time.
    Isn't that correct?
    Ms. White. That is correct.
    Mr. Walden. We had leakers there, I know. What are--what 
are some of the risks of the mission taking longer than 
expected and what is EM doing to prevent these risks from 
harming the public or the environment?
    Ms. White. Yes. So some of the risks involve, of course, 
worker safety, first and foremost. The other part of the risk 
is, you know, for example, PUREX Tunnel 2--those kind of 
things. So----
    Mr. Walden. And that is the one where the rail cars are 
underneath and----
    Ms. White. Correct.
    Mr. Walden [continuing]. The roof collapsed and opened them 
up?
    Ms. White. Correct. And the other tunnel we just finished 
grouting that tunnel completely. So that was a big success and 
it takes some risk off the table.
    So there are things we can do to remediate risks as they 
arise.
    Mr. Walden. I know that the little piece of glass I have 
here that was what--eventually these will be long tubes of 
glassified nuclear waste. But I notice when recently they 
announced they had finished turning three gallons of this toxic 
sludge into glass, I believe, which meant only 56 million 
gallons left to go.
    So I mean, this--they are just starting up but I think that 
is correct, isn't it?
    Ms. White. Yes. The three gallons actually was sent offsite 
as part of the test bed initiative and disposed of in Texas. So 
we actually removed waste from the State of Washington.
    Mr. Walden. Well, that is good. For my friends in Texas, we 
are glad to send you some of our byproduct of saving the world.
    [Laughter.]
    Mr. Walden. Yes, so this is a message, and finally it is 10 
seconds. I don't know if they can throw this slide up. But for 
those uninitiated, when you see the site of Hanford you see 
right next to it the Columbia River.
    Ms. White. Yes.
    Mr. Walden. The mighty Columbia River, and this is--and I 
know some of the geology tilts the other way. So they told us, 
you know, the odds of it ever leaking into the river are pretty 
slim. But, you know, we really don't want our salmon to glow at 
night and so we need to keep after this and I am glad you are 
on it and I am glad GAO is keeping an eye over your shoulder as 
well.
    So thank you, Mr. Chair, for your indulgence and thanks for 
the work you're doing.
    Ms. White. Absolutely. Thanks.
    Mr. Kennedy. The Chair thanks the ranking member, and I am 
grateful that you have that disc in your pocket.
    The Chair recognizes the gentlelady from Illinois, Ms. 
Schakowsky, for 5 minutes.
    Jan?
    Ms. Schakowsky. Thank you. Thank you, Mr. Acting Chair. I 
appreciate that.
    Ms. White, you have been there a short time. But you have 
been in the business and in the field as a contractor for a 
long time, right?
    Ms. White. That is correct. Twenty-five--over 25 years.
    Ms. Schakowsky. So you know that we are talking about a 
problem that has existed for the last 50 years, really, and I 
think there is good reason, including river contamination 
potentially, that we need to do more and that this is really 
long, long overdue--50 years of nuclear weapons production and 
energy research.
    I am glad we are having this hearing because I think a lot 
of people are not aware of this and yet we are talking about 
billions of dollars. Three hundred and seventy-seven billion 
dollars is what was spent.
    Is that the budget or the increase? That is the whole 
budget, right, for last year?
    Ms. White. That's the liability. Yes.
    Ms. Schakowsky. That is the liability?
    Ms. White. Right.
    Ms. Schakowsky. And it is the third greatest of the 
liabilities that we have in our agencies, right?
    Ms. White. That is right.
    Ms. Schakowsky. Yes. And it has been growing, even though 
the number of sites hasn't increased and so, really, the GAO 
has helped us try and figure out why, and let me first turn to 
Mr. Trimble here.
    Where is all that money going? I understand that half, 
sometimes 60 percent, is just going to keep the lights on at 
these places--not to remediate but to keep the lights on.
    Mr. Trimble. That is correct. There is a large amount of 
money that is basically called min safe--keep the facility 
operating if you have a closed facility. Make sure the roof 
doesn't collapse, to protect the workers.
    So about half of the money or 40 percent of the money is 
going to that work. I think the challenge in terms of seeing 
what you're getting for your money is without operating it as a 
program with a clear direction of where you want to be and 
where you expect to be, and without using project management 
skills to help you get there and measure your progress it is 
hard to tell what you are getting for the rest of your money.
    There is stuff being done. You are hearing buildings being 
closed or being remediated. But you don't know necessarily 
whether it should have been twice as much as they got done or 
they are getting great results and they are getting twice as 
much done with the same dollars, right, because they are not 
evaluating it against best practices. You don't know what you 
should be doing with the dollars you are spending.
    So it is hard to tell whether you are getting value and 
whether you are getting to where you need to go at the end of 
the day.
    Ms. Schakowsky. So the 2070 time line is that something 
that you projected? Who projected that it would be done by--
that seems unreasonable to me.
    Ms. White. That was a result of an independent review we 
had one. It was part of our TPA milestone. A tri-party 
agreement milestone requires us to update the life cycle 
baseline and we did that, and what some of it has to do with 
long time lines is maintenance on the facilities and having to 
have, as you say, the hotel load to keep the lights on as part 
of the funding profile.
    So there are a number of factors there, and we are actively 
looking at alternatives because of the life cycle baseline cost 
increase. Our project management order requires us to do an 
analysis of alternatives, which is underway now.
    Ms. Schakowsky. So you agree with the GAO findings, do you?
    Ms. White. I do. I do.
    We need to do better in program and project management and 
I think we can do better. In terms of the priorities across the 
various sites, unfortunately, CERCLA has a national priorities 
list and the sites are treated separately.
    However, in 2015, there was a omnibus risk report that came 
out that was actually required. It was a congressional report 
and it pointed out a number of opportunities to look at our 
work scope more in the way that Mr. Trimble would like us to.
    Ms. Schakowsky. When you were working as a contractor did 
you see these kinds of problems, inefficiencies, things that 
needed to be changed?
    Ms. White. There were times I did. There were times, 
though, when I also saw really absolutely amazing work get done 
by absolutely amazing people who were ready to innovate and 
roll up their sleeves and go.
    It has been more that than the inefficiencies and less than 
stellar cost behavior.
    Ms. Schakowsky. How do you explain to the taxpayers that 
while the number of sites has not changed that there has been 
this astonishing increase in the cost?
    Ms. White. Again, the latest increase is driven almost 
completely by Hanford. We are doing good work at our other 
sites and we are doing good work at Hanford, too. We are 
coalesced around the direct feed low-activity waste mission. It 
is going very well. So we are starting to pick up some speed 
and momentum and a little velocity.
    Ms. Schakowsky. So you are saying--am I out of time?
    Oh, I am sorry. I am out of time. That goes so fast.
    Ms. White. It does.
    Ms. Schakowsky. Doesn't it?
    Ms. White. It does.
    Ms. Schakowsky. OK.
    Ms. White. I will come and brief you----
    Ms. Schakowsky. I hope you will start going real fast, too.
    [Laughter.]
    Ms. Schakowsky. I yield back. Sorry.
    Mr. Kennedy. Thank you. The Chair thanks the gentlelady. 
The Chair will recognize the gentlelady from Indiana, Mrs. 
Brooks, for 5 minutes.
    Mrs. Brooks. Thank you very much and I agree, our 5 minutes 
goes really fast.
    I want to talk--I want to start out with you, Mr. Trimble, 
with respect to the report from February of 2019 where GAO made 
seven recommendations and focused on the project contract 
management piece.
    Should most of the cleanup work be classified as operations 
activities or as projects? And that seems to be what part of 
your report talks about is a huge problem and difference.
    Mr. Trimble. Yes. I think what we say in that report is 
that large chunk of the work currently managed as operations 
activities are projects and what we noted in there is that 
other people, the experts--some of the project management 
experts in DOE headquarters felt the same way and raised these 
concerns to EM in 2015 and EM at that time did not yield there.
    Mrs. Brooks. And why does the classification as to what 
work they are doing make a difference between operations 
activities versus the project?
    Mr. Trimble. The main--the main reason is over the last 10 
years DOE's management of contracts and projects has been on 
GAO's high risk list since 1990. It is another high risk area.
    For the last 10, 15 years we have done a lot of work in 
that area and DOE, to its credit, has made significant 
improvements to how it manages projects and what that means is 
they tighten up their requirements in something called Order 
413.
    So on the weapons side, NNSA, where they are building large 
projects, they have tightened up those requirements and they 
have seen significant meaningful results as a result of those 
tighter requirements.
    By classifying it as an operations activity, you avoid 
those tighter requirements. They are not subject to all the 
improvements we have worked so hard over the last 10 years to 
make.
    Mrs. Brooks. Is there any cleanup activity or work that you 
think should still be classified as operational activity versus 
moving the cleanup over to the other category?
    Mr. Trimble. No. These decisions really need to be left to 
experts at DOE. What our recommendation is that EM needs to 
work with the project management experts at DOE headquarters to 
come up with a way of classifying this work appropriately.
    Mrs. Brooks. So, Assistant Secretary White, is that 
happening?
    Ms. White. Yes. So what we are doing is in our program and 
project management policy is all work is going to be covered by 
a strict gated process and it fits in nicely with our end-state 
contracting model because we will treat--say we have a 2- or 3-
year task order. We are going to treat that as a gated process 
as a project that we are going to monitor and oversee.
    Mrs. Brooks. So it will be reclassified then as a project 
rather than operation activity?
    Ms. White. We--what we are going to do, again, is our 
program and project management policy follows all the GAO best 
management practices and we are going to use that.
    Within and underneath that we will also use 413.3.
    Mrs. Brooks. And does that satisfy you, Mr. Trimble, as to 
how the work will be classified?
    Mr. Trimble. Proof is in the pudding. We have not seen 
that. I think there is--our concern would still be the role for 
DOE headquarters and their office of project management and 
understanding those distinctions.
    One of the key areas of--that is involved in doing best 
practices for project management is having independent 
oversight meaning independent of the people either running that 
project or running the program.
    Mrs. Brooks. Right.
    Mr. Trimble. So that will be a key element of that.
    Mrs. Brooks. Has EM ever classified a cleanup work as a 
capital asset project?
    Ms. White. Yes. Yes.
    Mrs. Brooks. And which one was that?
    Ms. White. That I know off the top of my head was Main 
Plant demo out in New York.
    Mrs. Brooks. And why was that classification not continued 
for other cleanup projects?
    Ms. White. So 413 is a project management order that, to 
me, is most amenable to when you are building something. What 
our program and project management policy does, again, it 
incorporates all the best practices pointed out.
    It also includes a gated process which means we would work 
with the project management office--the overall DOE project 
management office--on all of these things.
    Mrs. Brooks. So are you--so are you now working with DOE 
project management office at the highest levels in a different 
way than you have been working than EM has been working with 
them for decades?
    Ms. White. Not--yes. So we have been--we work with them 
very routinely. So with our, again, a revised policy we are 
going to be working very closely with them. We have been 
working closely with a number of people in the building. We 
have some very good program and project management experts 
involved in helping us develop this policy. So I think we are 
in very good stead.
    Mrs. Brooks. Is EM operating under any kind of constraints 
to change the way these projects are managed as to whether or 
not they are projects versus operational activities?
    Ms. White. No. We don't have any constraints. The policy 
will be an EM policy. So I don't feel constrained.
    Mrs. Brooks. OK. Thank you. I yield.
    Mr. Kennedy. The Chair thanks the gentlelady. The Chair 
will recognize the gentlelady from New York, Ms. Clarke, for 5 
minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman. I thank you 
both for appearing before us today.
    Over many years, GAO has identified management concerns 
which encompass nearly all aspects of DOE's Office of 
Environmental Management called EM including its direction 
management ability to make effective decisions and to address 
the legacy of nuclear contamination from the Cold War. This we 
all know.
    So I want to drill down on this a bit, Mr. Trimble. What 
exactly does it mean that DOE's Environmental Management Office 
does not follow leading management practices?
    Mr. Trimble. Well, I think the easiest way to understand 
that is the leading practices both in program and project 
management are there to help you deliver your project or your 
deliverable on time and on budget.
    So when you are not following these practices, and these 
are practices that--these come from industry. They come from 
government. These aren't things GAO comes up with. These are 
standard things people do to succeed.
    So if you are not following any of these, it means your 
chance of success is probably none. You have to follow these if 
you want to deliver on time and on budget.
    Ms. Clarke. Mr. Trimble, you noted in a report just a few 
months ago that until EM reviews and revises its cleanup policy 
to include program management leading practices related to 
scope, cost, scheduled performance, and independent review, the 
EM program is at risk of continued uncontrolled changes to the 
program scope, exceeding its cost estimate and schedule, 
failing to meet its programmatic goals, and increasing DOE's 
environmental liabilities.
    Why is it important that EM change or revise its cleanup 
policy to follow best practices in addressing cleanup 
activities and why is it not doing it?
    Mr. Trimble. It is critical because without doing so you 
are never going to get a handle on that liability growth. To 
achieve the mission, to protect these communities, to protect 
the taxpayers' interests, you have to change course and embrace 
these best practices.
    I think the challenge in the past has been, as I mentioned, 
DOE writ large has been on our high risk for project and 
contract management since 1990 when we started that list and 
this has not been something culturally that comes naturally to 
DOE.
    Ms. Clarke. Mm-hmm. So would it be fair to say that EM's 
operations activities are still at risk of uncontrolled changes 
which could further balloon costs and add time to the already 
long schedules for cleaning up these sites?
    Mr. Trimble. I am encouraged by the changes we hear DOE is 
talking about. But until those are fully implemented, yes, 
absolutely.
    Ms. Clarke. Ms. White, I would think that if EM followed 
these best practices for program management and project 
management we might experience better outcomes.
    I understand that you are in the process of trying to adopt 
many of the recommendations made by GAO to implement these best 
practices. But what is your plan for adopting these recommended 
practices? What are your time lines for implementing them and 
do you have the resources to take on this challenge?
    Ms. White. So our program and project management policy is 
in the last throes of internal review. It'll then go out to the 
sites for their review and get reviewed by a number of 
stakeholders really because what this is it is a bit of a 
culture change.
    So we want to make sure we engage all of our stakeholders, 
if you will, and when I say that I mean the PM organization 
within DOE--project management organization--and, again, the 
sites.
    So that should be rolling out fairly shortly. The other 
thing I want----
    Ms. Clarke. What does fairly shortly--I mean, has this 
process already begun?
    Ms. White. Oh, yes. We started revising the cleanup policy 
well before we even got the----
    Ms. Clarke. But you are saying creating this culture of 
buy-in, essentially, right?
    Ms. White. Yes. So----
    Ms. Clarke. What is that like?
    Ms. White. So basically because the sites are CERCLA sites 
by and large, they are on a national priority list and they are 
on a path. So by doing this program management policy it is 
going to be a bit of a change for kind of the relationship 
between the sites and headquarters. So that is one factor.
    The other thing----
    Ms. Clarke. Yes. So the question I have is it is a change 
in culture, right, and oftentimes change is very difficult when 
people are hardwired on the way things used to be.
    How are you working at changing that culture and where are 
you in that process? Are you getting the buy-in that is 
required to expedite this? That is the important thing right 
now, right?
    Ms. White. I am getting the buy-in to expedite and get this 
rolling. The other thing is we got really good buy-in and a lot 
of excitement around our end-state contracting model, which is 
a huge change to the way we have been doing business. But, 
again, we have got a lot of really good energy around that and 
a lot of good cooperation. So I feel very pleased with the 
progress.
    Ms. Clarke. Mr. Trimble, what are your reactions to some of 
the ideas that Ms. White is laying out here today?
    Mr. Trimble. I am encouraged by their acceptance of our 
recommendations and some of the ideas I would--you know, my 
mother who, God bless her, is 97 now--always told me, ``I 
didn't raise you to be an optimist.''
    [Laughter.]
    Mr. Trimble. Why I am at GAO, I suppose. But, you know, if 
you look back over these issues going back to--you know, GAO 
has been reporting on this--these--the challenges in the 
cleanup program since the 1970s.
    As I have said, the changes we are talking about are 
fundamental. The areas that I would caution or have questions 
in terms of some of the proposals is their end-state 
contracting. I don't know enough about what that actually means 
in practice of judge.
    It sounds great. Contracting has been a challenge for DOE 
so that is good. But contracting is not project management. 
Contracting supports management. And so you have to have 
management set up and then use contracting.
    Ms. Clarke. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Kennedy. The Chair thanks the gentlelady.
    The gentleman from Oklahoma is recognized. Mr. Mullin for 5 
minutes.
    Mr. Mullin. Thank you, Mr. Chairman, and thanks for being 
here.
    Ms. White, I just want to talk a little bit more about the 
project management. It is something that I do and have done my 
whole life. I understand job sites. I understand the culture to 
which you're talking about. But I don't understand implementing 
best practices.
    As a general contractor, if I want to make changes on my 
job site, it is my job site. I am going to make changes because 
it is for the best of the project. It is not allowed--it is not 
even open for discussion. We are going to implement them 
because it is the way we move the project forward. Those that 
don't want to get on board they can find another job.
    It is just the way that it works. Construction works 
certain ways. And so when you're talking about cleanup sites, 
you're working off $377 billion and rising. Would that be fair?
    Ms. White. We hope not it is rising.
    Mr. Mullin. Well, it is. Mr. Trimble, $377 billion and 
rising. Would you agree?
    Mr. Trimble. Absolutely. Yes.
    Mr. Mullin. OK. So $377 billion and rising. Are you working 
off any type of budget?
    Ms. White. So we get usually around $6 billion plus per 
year.
    Mr. Mullin. So are these--are they going out to bid? Are 
you bidding these projects?
    Ms. White. Yes. So the way we are doing our----
    Mr. Mullin. So if you're working off bids----
    Ms. White. Yes.
    Mr. Mullin [continuing]. You have got a project. We know 
what needs to be accomplished on the project. We are bidding it 
out. How are we not working off a budget?
    Ms. White. So the way we have been doing contracting 
previously is it was a 10-year ordering period and, quite 
frankly----
    Mr. Mullin. What do you mean 10-year ordering period?
    Ms. White. So it is a 10-year period of performance. So 
we----
    Mr. Mullin. So they bid to work for 10 years?
    Ms. White. They bid--yes, 10 years.
    Mr. Mullin. Are they open bid? Are they bid a dollar 
amount? How is that bid out?
    Ms. White. They are open competition.
    Mr. Mullin. No, I mean--I mean, do they bid it saying, I am 
going to work for 10 years for X amount of dollars and I am 
going to have X amount of employees on there and this is 
equipment is going to be brought on?
    Ms. White. So, basically. But----
    Mr. Mullin. What do you mean--and just help me understand. 
I am not trying to badger you. I am just saying, basically, it 
sounds like to me if you're doing a $377 bid and rising that 
you're not really bidding it out. You're getting a start price 
and there's a thousand change orders that's coming behind it 
each day.
    Ms. White. Yes. Yes, and that was----
    Mr. Mullin. So why are we allowing change orders? Did they 
know the job? Did they know the scope of it before they went 
in?
    Ms. White. Not in many cases?
    Mr. Mullin. How did they not? We knew what needed to be 
done. And how long have we been on the site now?
    Ms. White. So, traditionally----
    Mr. Mullin. Not traditionally.
    Ms. White. OK.
    Mr. Mullin. We know what needs to be done. I am not talking 
about the past. You're--we are looking forward.
    Ms. White. Yes. So looking--looking----
    Mr. Mullin. The past are mistakes we can learn from.
    Ms. White. Looking forward, that's our end-state 
contracting model exactly, so that we will know exactly what--
--
    Mr. Mullin. So why isn't that already implemented them?
    Ms. White. We are. We have RFPs on the street right now.
    Mr. Mullin. So we are going to go to project. We are not 
going to allow change orders because this happens all the time. 
The change orders was the sneaky way that you came into a job 
late at a low price and you used up----
    Ms. White. We call it buy-in the job.
    Mr. Mullin. Right. And then so now you get jobs all the 
time and change orders aren't allowed. They will tell you right 
off the bat. Change orders are not allowed until the--unless 
the GC instructs change orders because, you know, every change 
order comes with another change order from everybody 
downstream.
    Ms. White. Right.
    Mr. Mullin. So that's how you get out of hand. So are 
these--are these bid by Federal contractors? Who are these bid 
by?
    Ms. White. So usually it is--a LLC is set up by a group of 
large contractors--Jacobs, Fluor, Bechtel.
    Mr. Mullin. So were they--that are Federal employees that's 
out there working on it?
    Ms. White. So we have oversight responsibility but we don't 
do the field work.
    Mr. Mullin. So who is the general contractor on the job 
sites?
    Ms. White. So the general contractor on the job site would 
be considered probably the president of the LLC.
    Mr. Mullin. And the LLC bids the project and then moves 
forward?
    Ms. White. Yes, under our end-state contracting model how 
it is going to work is we select people based on personnel 
first because, based on my experience in the field, that's the 
most important factor for a successful project.
    Mr. Mullin. Personnel--explain that one to me.
    Ms. White. So that's their key personnel. Who the company 
is bidding to be the president----
    Mr. Mullin. Well, to me, anybody that's been on this job 
site should be fired. They are not doing their job right. So 
how are you basing it personnel? I am just giving you the facts 
of the matter. I am a business man and this is what I do for a 
living so I get it. I would keep no one there.
    If I am taking over a company that's failing, which these 
projects are failing because they are going way over budget and 
no end in sight, why would I keep the management intact?
    Ms. White. I am not saying we are. I am just telling you 
the way we are rolling out this contracting model and how it is 
different and how it is going to improve performance.
    Mr. Mullin. But I have questions when you're saying you're 
basing it on personnel. What personnel are you looking for? 
Because the model to which is being used isn't successful. It 
is kind of difficult for me to say that I am going to bid a job 
based on the personnel to which is coming forward.
    Ms. White. There's a number of factors. It is not the only 
factor.
    Mr. Mullin. It should be based on the--on the work that 
needs to be done and is the company capable of delivering it or 
not.
    Ms. White. Yes, and all of those factors are involved as 
well.
    Mr. Mullin. But you are saying you are--and I am not--I 
will wrap up in just a second. I just want to clarify what 
you're saying on here. You are saying you're basing the bid on 
personnel.
    Ms. White. No, I am not.
    Mr. Mullin. But that's what you said.
    Ms. White. There's three factors. It is personnel, it is 
work scope, and it is their organization. So there's a number 
of factors involved in the bidding process and the most 
important thing that is going to improve performance is the 
postaward negotiations which will limit or eliminate change 
orders.
    Mr. Mullin. Everything you said is why Federal contracts 
cost so much. When you're bidding a job, double it. You're 
still not going to come in on it.
    Thank you. I yield back.
    Mr. Kennedy. Chair thanks the gentleman. The Chair 
recognizes the gentlelady from New Hampshire, Ms. Kuster, for 5 
minutes.
    Ms. Kuster. Thank you very much and thank you for being 
with us today.
    You know, I think the frustration you hear in a bipartisan 
way is that we are hired by the constituents to protect public 
safety and to protect the public dollars. These are hard-earned 
tax dollars, and it is our role to find that balance, and we 
want to work with you.
    But when you're talking hundreds of billions of dollars, I 
think it is important for us to have a plan and have a strategy 
and not just continue to come back and pour more money after--
good money after bad. And so I think that's what you are 
hearing from us.
    I noted in the GAO report that the Office of Environmental 
Management--and I am just going to quote here--lacks the 
information needed to evaluate overall project performance and 
assess whether it has sufficient staff or the right staff with 
the rights skills to carry out the cleanup mission.
    Now, you didn't create the problem and I appreciate you 
coming on to do your part to clean this up. Let me start, Mr. 
Trimble, with you.
    Does the Office of Environmental Management have sufficient 
capacity to appropriately handle the cleanup of our Nation's 
most hazardous sites at this time?
    Mr. Trimble. I think that is a key question and I would 
encourage Anne to--as they embark on these new initiatives to 
do an assessment of that.
    One, you know, we have talked about DOE headquarters having 
a project management office. You know, they can avail 
themselves of that office. But I would note that there is a 
robbing-Peter-to-pay-Paul aspect of what is going on, because 
in fact there was a Paul Bosco who moved from that office over 
to EM to support EM in this transformation. But that just tells 
you how thin the bench is, right----
    Ms. Kuster. Right.
    Mr. Trimble [continuing]. Both at DOE headquarters and in 
the EM. So as they assess this, you know, Assistant Secretary--
you know, the efforts by the assistant secretary is great but 
you need the horses on your bench to carry out because there 
are a hundred other issues the assistant secretary has to 
manage and you need the resources to do that, and I think an 
assessment of that in terms of the skilled staff and the level 
of staffing is important.
    Ms. Kuster. And then let me ask you, Ms. White, the same 
question. Does your office have sufficient capacity to 
appropriately handle cleanup of our Nation's most hazardous 
sites and my understanding is we are down to a dozen or so but 
these are the most challenging sites.
    Ms. White. Yes. So we are having a look at that, especially 
within the context of some of our new approaches and 
innovations. So we are having a close look at that and that is 
something that is in process as we speak, and I also--we are 
required, EM, to have an advisory board. So ours is creatively 
called EM Advisory Board and we are also having them take a 
look at this issue for us.
    Ms. Kuster. And can I just ask, as the Oversight 
Subcommittee of our Energy and Commerce Committee if we can be 
considered part of your advisory board if you could report back 
to us on that assessment of staff and personnel whether you 
have the right people with the right skills.
    So here is my--another concern that I have. In March, DOE 
released its fiscal 2020 budget request. But this 
administration has proposed reducing the Office of 
Environmental Management budget to $6.5 billion, which is about 
10 percent reduction below last year, 2019. This seems to me 
like we are headed in the wrong direction. How will cutting 
your budget by 10 percent help bring down the program's 
substantial environmental liability and help clean up these 
sites?
    Ms. White. So the budget request is adequate for what we 
need to get done for 2020 and I feel confident that the work 
scope we have planned will get accomplished within the current 
budget.
    Ms. Kuster. But how do we work through the backlog of sites 
and--look, I am not a nuclear engineer but I am a mom and a 
citizen and I can tell you that leaving it out there longer 
waiting for some type of sabotage, some type of accident, is 
not making our constituents across this country safer. So how 
is cutting your budget helping you to deal with the backlog of 
these sites?
    Ms. White. Again, the budget we requested is adequate for 
the scope we have planned. Is the scope we have planned going 
to bring down liabilities? Maybe it is not the right scope.
    So we are working very diligently, as I said, with our end-
state contracting model to ensure we have a great understanding 
of our work scope and then stick to the plan. Have a plan, 
stick to the plan.
    Ms. Kuster. My time is up. But with your indulgence, Mr. 
Chair, could I ask Mr. Trimble's comment on that?
    Mr. Kennedy. Please.
    Mr. Trimble. Yes. The budget--I mean, I think the danger 
without trying to get a handle on the backlog of liability is 
important because at some point this growth and dynamic we are 
seeing starts to resemble an interest-only loan on your house, 
right, and you can't----
    Ms. Kuster. Just what I was thinking of. We are not making 
progress.
    Mr. Trimble. You're not bringing down the principal. One 
observation regarding the budget and the--sort of connecting 
that to the lack of a sort of strategic plan here is if you 
have a longer-term plan you realize this mission continues to 
2070, 2080, you will look out over that time and realize we 
have a challenge with cesium removal or a challenge with this.
    I need technology to answer that to lower our cost. You do 
that through technology development. What I noted in the budget 
is I think their--the amount for technology development was 
zeroed out, and this is important because there is currently a 
National Academy of Sciences that has been helping EM on the 
issue of technology development to help EM achieve its mission. 
So I think----
    Ms. Kuster. But we are not going to move into the future 
with zero research and development.
    Mr. Trimble. It is a question.
    Ms. Kuster. Great. Thank you very much, and I yield back.
    Mr. Kennedy. Thank you. The Chair thanks the gentlelady and 
recognizes Mr. Duncan from South Carolina for 5 minutes.
    Mr. Duncan. Thank you. Thank you both for being here.
    And I am sitting here listening to the testimony and 
listening to the questions today, and I wonder how many Members 
of Congress--how many members of this committee--have actually 
been to Hanford, Washington, or to Savannah River Site or Idaho 
Flats or Oak Ridge, Tennessee.
    How many have actually taken the time to understand what we 
are talking about today? Because in the production of the 
Nation's atomic arsenal we use chemical separation facilities 
and there's only one chemical separation facility left in the 
Nation and that is H Canyon at Savannah River Site.
    Now, Savannah River Site is different than Hanford. Hanford 
is a closure site. That means we are going to close it down. We 
are going--we are going to clean up the property and, 
ultimately, it is going to be just a cleaned up site. Savannah 
River Site has continuing emissions for this Nation and H 
Canyon is vital.
    But when H Canyon is operating, there will be waste created 
that'll ultimately have to be taken out of these tank farms. 
What we are talking about are tank farms. Huge 800,000 gallon 
tanks and usually there are, what, 12, 15 in a tank farm? 
Fifteen 800,000 gallon tanks. Those tanks are bigger than the 
room we are sitting in right now.
    And so when the plutonium is created for our Nation's 
arsenal, when the stuff separated away to find the plutonium 
and use it, this stuff settles out in the tank farms, much like 
a septic tank where liquids flow, solids settle down, then the 
next set, more solids settle down.
    And so you've got all this stuff underground in carbon 
fiber--carbon steel tanks, rather. Some of these at Hanford are 
single-wall carbon steel tanks, which are starting to leak.
    Where does Hanford sit? It sits on the Columbia River. 
Where does Savannah River Site sit? It sits on the Savannah 
River. Where does Oak Ridge sit? On the Tennessee River.
    These are areas that are environmentally sensitive that 
could affect a lot of people and our Nation's environment had 
this waste leaked into the soil and ultimately got into the 
river system in the Columbia River with regard to Hanford.
    And so Savannah River Site, we have 35 million gallons came 
out of 43 tanks. That waste has been vitrified. That means it 
has been turned into glass. While it was still molten, it 
actually filled up ten-foot stainless steel canisters.
    These canisters still sit at Savannah River Site but they 
were destined to go to Yucca Mountain. But when we decided we 
were going to not use Yucca Mountain for its intended purposes, 
which was the law of the land, that waste--defense waste still 
sits at Savannah River Site along with plutonium that's got to 
go somewhere that came out of the nonproliferation.
    And so we have got all this waste. Let us go back to 
Hanford. Hanford is a cleanup site. They not only had tank 
farms, they also found a bunch of radioactive material all over 
the site that had to be taken care of. That waste has to go 
somewhere.
    And so there are challenges when you have an 800,000 gallon 
tank underground to get into that tank to get the waste out. 
When I was in Hanford in 2008 they were worried about the lid 
collapsing on the tank so they were going through 12- and 14-
inch pipes into those tanks to try to clean it up.
    Now, we are talking about solids in there. We are talking 
about peanut butter paste like semi-solids. We are talking 
about salt waste. We are talking about liquids. Liquids are 
easy to pump out. But how are you going to--peanut butter type 
waste out from inside that tank? They were sticking robots into 
that tank operating to push that solid up--that semi-solid up 
to get it out of that tank. It was a challenge.
    That's where some of the costs comes from. Finally, they 
discovered they could cut into the tank and it has made it much 
easier to get into those 800,000 gallon tanks to get that waste 
out.
    But once that waste has come out at Hanford, it has got to 
be vitrified. It has got to be solidified so that it doesn't 
leak into the soil and, whatever capacity we decide to store it 
in as a nation, we can't have it continuing to leak into the 
ground.
    So they turn it to glass. Glass doesn't go anywhere. It 
doesn't leak into the ground. But these are costs. I am a 
fiscal hawk. I really believe we ought to look at every dollar 
this Nation spends.
    But I believe my constituents and people around the Nation 
would be OK with spending money to get the waste out of these 
tanks to keep it from leaking in the Savannah River, to keep it 
from leaking into the Columbia River or the Tennessee River or 
wherever it may be, versus a lot of money our Government spends 
on other things.
    Environmental Management, they spent $48.5 billion since 
2011. If you go back, pass that for decades, you had stimulus 
money, ARA money trying to build vitrification facilities, high 
waste--liquid disposal sites at Hanford to deal with this 
waste.
    The liability is $377 billion. I will guarantee the 
liability will go up if that waste makes it to the river. It is 
already in the ground at Hanford in some places and having to 
be cleaned up.
    So this is a great hearing to talk about the environmental 
management of this waste that came out of our weapons programs 
in sites all over this country that are being cleaned up but 
also a reminder that we are going to continue making waste at 
Savannah River Site because it has ongoing missions and how we 
deal with that waste is something that we ought to continue 
talking about and I want to challenge every member of this 
committee--subcommittee and full committee--to take it upon 
yourselves to go to Hanford and understand what they are 
dealing with with 800,000 gallon underground tanks and tank 
farms. Multiple tanks, not just one.
    Go to Savannah River Site and understand what they are 
dealing with with underground tanks, what they are dealing with 
in H Canyon, its ongoing missions, and the waste that will be 
created then, because this isn't going away as our Nation 
continues to try to be safe in a global environment that we 
have.
    And so I thank the Department for what they do, and I am 
standing in your corner as a member of the Cleanup Caucus to 
try to help clean up this Nation, and I yield back.
    Ms. White. Thank you.
    Mr. Kennedy. The Chair thanks the gentleman and the Chair 
recognizes himself for 5 minutes for questions.
    I want to thank the witnesses for being here, for the work 
that you do, and for coming to try to address, as Mr. Duncan 
put it, some critical issues that our Government needs to 
address, and I think the question being how do we do so as 
expeditiously and as efficiently as we possibly can.
    So building off of a little bit of what Mr. Duncan 
indicated, since 2011 EM has spent over $45 billion to try to 
address the cleanup responsibilities. And yet, we seem no 
closer to cleaning up these sites or reducing the department's 
environmental liabilities.
    In fact, DOE reported that the environment liabilities 
managed by EM grew to $377 billion last year--$100 billion 
increase from the year before and more than double what it was 
in 2011.
    So I want take a few minutes to try to figure out what we 
have bought with all the money we are spending and how we can 
try to start to buy down some of that liability.
    Mr. Trimble, to begin with, how have the cleanup activities 
at--that EM has spent money on in recent years gotten us closer 
to actually cleaning up the sites and why are we spending more 
and yet seeing that liability continue to grow?
    Mr. Trimble. Well, there has been accomplishments with the 
money spent. I think there--you know, you can't deny the 
commitment and the professionalism of the folks in the field 
doing this work.
    I think the challenge, from our perspective, is should we 
have gotten more done with the same amount of money, and to 
answer that question you need to have used program and project 
management best practices because that is how you are able to 
measure and manage your work to achieve results and that is 
what we haven't seen.
    Mr. Kennedy. And do you expect that those will be adopted, 
going forward?
    Mr. Trimble. I am encouraged by the direction Assistant 
Secretary White is taking. I think, obviously, the proof is in 
the pudding. Ultimately, we will have to see how those get 
implemented.
    My concern, again, being sort of the doubting Thomas, is 
the scope of the changes we are talking about are fundamental. 
They involve more than just EM. They involve all of DOE and the 
commitment of senior leadership there.
    The changes we are talking about, you know, EM has had, 
what, I think about seven assistant secretaries since 2010 or 
so. You know, I am hoping Assistant Secretary White is there 
for another 10 years. I mean, it would be great to have that 
kind of continuity and commitment to this mission.
    But the danger has always been you have transition. The 
other thing is the EM as a mission within DOE has sort of been 
the neglected child that has been moved around multiple times 
within the organization. Even though its budget is bigger 
than--science has its own under sector. EM's budget, just its 
budget is bigger than science. You add in the liability, I 
don't know what--maybe NNSA is bigger but nobody's bigger. And 
yet, they are only at the assistant secretary level.
    Mr. Kennedy. And so I wanted to build off of a little bit 
of what you said. A significant portion of those cleanup 
dollars, some 30 to 60 percent for individual sites' budgets, 
according to testimony, is going to what's called minimum 
safety, or min-safe, work.
    What is min-safe work referring to and why should we be 
concerned about it?
    Mr. Trimble. Min-safe is--it is overhead. I don't mean to 
be dismissive of the need to do that overhead. You're talking 
about keeping the water running, the electricity, the guard 
force, keeping buildings from collapsing.
    The challenge there is that the percentage of min-safe is 
huge. As a total of the budget, it is 42 percent. Some--several 
sites it is over 50 percent. At one site, it is over 70 
percent. So that means the dollars actually going to cleanup 
are a fraction of what is appropriate.
    Mr. Kennedy. So, Ms. White, kind of using that as--turn to 
you, how can we continue to make progress on the underlying--
building off of the testimony of Ms. Kuster as well about the 
interest-only mortgage--how can you continue to or how can we 
make progress on the underlying liabilities if such a large 
percentage of this is just simply going to min-safe work?
    Ms. White. Right. So that is actually kind of a pet peeve 
of mine. Some of my people could share that with you. So we are 
actually launching on a major initiative where we are looking 
at, OK, how are we defining min-safe, how are we looking at 
landlord services, and are we mixing some of those things up, 
which will allow us, I believe, to mine some money out of that 
min-safe bucket but still be absolutely and completely safe 
ops. So we are actually very excited about it.
    Mr. Kennedy. And GAO, I understand, has also reported that 
the department's estimates of environmental liabilities is 
likely to continue to grow as we have discussed. Recently, DOE 
issued a life cycle cost report for the Hanford site which said 
that cleanup could take until the year 2078, as we heard 
earlier, and cost as much as $677 billion, a figure that the 
secretary of energy called shocking.
    That is just one site and doesn't include the cleanup costs 
of the other 15 sites. So I think we can all agree that $677 
billion is a big number. Do you believe that that estimate for 
the Hanford site is accurate and, if so, how much will EM 
liabilities grow next year as a result?
    Ms. White. So I believe it is accurate. I don't expect to 
see it to grow. One thing I do want to state is we are 
actually--EM is doing well on most of our sites. Our big 
challenge is the tank waste at Hanford and that's really what's 
been driving the liability increases all along.
    Mr. Kennedy. All right. One moment.
    I want to thank our witnesses for their participation at 
the hearing. I want to thank our colleagues as well for their 
questions. Clearly, it is an important area that we need to get 
right. And I remind Members that, pursuant to committee rules, 
they have 10 business days to submit additional questions for 
the record to be answered by witnesses who have appeared before 
the subcommittee. I ask the witnesses to agree to promptly 
respond to any such questions you should receive.
    And with that, the subcommittee is adjourned. Thank you 
very much.
    [Whereupon, at 12:03 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
